 DEPARTMENT OF HOMELAND SECURITY

  Office of Inspector General



    An Audit of Distributing and Spending
       “First Responder” Grant Funds




        Office of Audits
OIG-04-15            March 2004
                                               Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the best knowledge
available to the OIG, and have been discussed in draft with those responsible for implementation.
It is my hope that this report will result in more effective, efficient, and/or economical operations.
I express my appreciation to all of those who contributed to the preparation of this report.




Clark Kent Ervin
Inspector General
                                                                                                                        Contents


  Introduction.................................................................................................................................... 3

  Results in Brief .............................................................................................................................. 3

  Background .................................................................................................................................... 4

  States and Locals Slow to Spend Funds, Although More Had Been Committed and Obligated .. 6

             Funds Awarded and Drawn Down by the States................................................................ 6

             Funds Obligated and Spent by the States........................................................................... 8

  ODP Processing Times Have Improved but State and Local Delays Continue............................. 9

  Reasons for Delays ...................................................................................................................... 11

  Monitoring and Measuring Performance ..................................................................................... 16

  Consolidation of Preparedness Grants ......................................................................................... 17

  Conclusion and Recommendations.............................................................................................. 18

Appendices

  Appendix A:                 Purpose, Scope, and Methodology...................................................................20
  Appendix B:                 State and Local Jurisdictions Visited During the Audit .................................. 21
  Appendix C:                 List of FY 2002 SDPP and FY 2003 SHSGP Awards to States .......................25
  Appendix D:                 List of FY 2002 SDPP, FY 2003 SHSGP and SHSGP II Draw Downs...........27
  Appendix E:                 Recommendations............................................................................................29
  Appendix F:                 Management Comments ................................................................................. 30
  Appendix G:                 OIG Analysis of Management’s Comments ....................................................43
  Appendix H:                 Major Contributors to this Report................................................................... 45
  Appendix I:                 Report Distribution ......................................................................................... 46




           An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                                                            Page 1
Contents

Abbreviations

   DHS          Department of Homeland Security
   ODP          Office for Domestic Preparedness
   OIG          Office of Inspector General
   SDPP         State Domestic Preparedness Program
   SHSGP        State Homeland Security Grant Program
   SHSGP II     State Homeland Security Grant Program, Part II
   DOD          Department of Defense
   DOJ          Department of Justice
   OJP          Office of Justice Programs
   GMS          Grants Management System




Page 2            An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
OIG
Department of Homeland Security
Office of Inspector General


    Introduction
                              Spurred by the events of September 11, 2001, Congress, state and local
                              politicians, first responders, and the general public have become increasingly
                              aware of the need to improve first responder preparedness for terrorist incidents.
                              Federal funding for first responder grants increased 2,375 percent from 1999 to
                              2003. However, reports by recipients of the funds have criticized the slow rate at
                              which the funds are being distributed.

                              This report describes the results of our review of the overall award, distribution,
                              and spending of first responder grant funds awarded under the FY 2002 State
                              Domestic Preparedness Program (SDPP), the FY 2003 State Homeland Security
                              Grant Program (SHSGP), and the FY 2003 State Homeland Security Grant
                              Program Part II (SHSGP II). Throughout this report, the term “first responder
                              grants,” refers to all three grant programs. Department of Homeland Security
                              (DHS) Office for Domestic Preparedness (ODP) is responsible for the programs.

                              OIG will be conducting independent audits of individual states’ management of
                              first responder grants. Those audits will address how effectively the states are
                              using grant funds and whether they are complying with grant requirements. In
                              addition, we will conduct an audit to evaluate the effectiveness of ODP’s State
                              Homeland Security Assessment and Strategy process. This process includes the
                              use of a data collection tool to assist states in conducting threat, risk, and needs
                              assessments.

    Results in Brief
                              States, local jurisdictions, and first responder organizations have been slow
                              to receive and spend ODP first responder grant funds. As of February 2004,
                              the majority of the $882 million in FY 2002 SDPP and FY 2003 SHSGP first
                              responder grant funds were awarded by ODP but still remained in the U.S.
                              Treasury. The majority of the $1.5 billion awarded in SHSGP II funds also
                              remained with the U.S. Treasury. ODP statistics show drawdowns1 of 36 percent,
    1
     The term, “drawdowns,” refers to grant funds disbursed from federal accounts to state grantees to be spent on approved
    equipment, training, and exercises.


               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                                Page 3
                           13 percent, and 10 percent, respectively. However, those statistics are somewhat
                           misleading, and the spending picture is not as bad as it appears. In some
                           instances, states and local jurisdictions had delayed spending funds pending the
                           completion of state-wide risk assessments and homeland security strategies and
                           the development of detailed spending plans, believing that spending the funds
                           wisely was more important than spending them immediately. In addition to
                           delays caused by states’ developing strategies and detailed plans for spending the
                           funds wisely, we identified numerous other reasons for delayed spending. While
                           some of the delays are unavoidable, others can be reduced. ODP’s application
                           process was not a major reason for delays. For the most part, state officials
                           praised ODP and believed that ODP processed grant applications in a timely
                           manner.

                           To ensure that the nation’s first responders are prepared for incidents of terrorism,
                           ODP should: 1) require more meaningful reporting by grantees and develop
                           performance standards that can be used to measure the overall success of the
                           grant programs; 2) assist state planning efforts by accelerating the development
                           of federal guidelines for first responder capabilities, equipment, training, and
                           preparedness exercises; and 3) work with grantees to identify and publicize best
                           practices and strategies that speed spending.

                           DHS recently proposed a consolidation of its preparedness grant programs,
                           including first responder terrorism grants, and combining ODP and the Office
                           of State and Local Coordination into one office. Through this consolidation,
                           DHS intends to correct its fragmented approach to delivering preparedness grant
                           programs, streamline the grant application process, and better coordinate federal,
                           state, and local grant funding distribution and operations.

Background
                           In 1996, Congress tasked the Department of Defense (DOD) with enhancing
                           the capability of federal, state, and local emergency responders in incidents
                           that involve nuclear, biological, or chemical terrorism. DOD began by offering
                           and managing equipment loans to 68 cities for training and personal protection
                           equipment.2 In 1998, the Department of Justice’s (DOJ) Office of Justice
                           Programs (OJP) began offering its own preparedness grants to cities through
                           its Office for State and Local Domestic Preparedness Support, which was later
                           renamed the “Office for Domestic Preparedness (ODP).” In 2000, ODP was

2
    Referred to as the Nunn-Lugar-Domenici Domestic Preparedness Program.


Page 4                        An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                           given responsibility for completing DOD’s preparedness grant program. Over
                           the years, the grant program grew slowly and shifted from grants directly to cities
                           to grants to states, which were sub-granted to local jurisdictions. Subsequently,
                           the program was expanded from funding just equipment to include the cost of
                           administration, training, planning, and preparedness exercises. Funding for the
                           program increased from $83.53 million in 1999 to over $2 billion in FY 2003.

                           In March 2003, the program was transferred to DHS. During this transfer, the
                           grants became commonly known as “first responder” grants. First responders
                           include public safety personnel working in law enforcement, emergency medical
                           services, emergency management, fire service, public works, government
                           administration, health care, and public health.

                           ODP has continued DOD’s and DOJ’s mission to oversee the enhancement of
                           state and local jurisdictions’ ability to respond to, and mitigate the consequences
                           of, incidents of terrorism through the delivery of first responder grants. The
                           grants aid states and local jurisdictions with administration and planning costs
                           as well as the cost of acquiring specialized training, conducting preparedness
                           exercises, and acquiring equipment necessary to safely respond to and manage
                           terrorist incidents involving weapons of mass destruction, with a focus on
                           chemical, biological, radiological, nuclear, and explosives preparedness.

                           While ODP is responsible for the first responder grant program, it continues to
                           rely upon DOJ’s OJP for grant distribution and financial management support.
                           ODP also uses OJP’s automated Grants Management System (GMS). Once
                           Congress appropriates funding, ODP uses GMS to post grant solicitation notices
                           and to make grant applications available. In addition to other grants, ODP
                           managed one first responder grant program in FY 2002, SDPP, and two grant
                           programs in FY 2003, SHSGP and SHSGP II. Funding for these programs totaled
                           $2.4 billion. See appendix C for a list of the 56 states and territories awarded
                           ODP grants in FY 2002 and FY 2003 and the amounts awarded.

                           State and territory governors are responsible for appointing a state administrative
                           agency that applies for and manages the grants and acts as the liaison between
                           ODP and local jurisdictions. For most of the grant awards, states are required to
                           allocate at least 80 percent to local jurisdictions and use OJP’s GMS to apply for
                           the grants.



3
    1999 funding does not include amounts that may have been provided by DOD.


             An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                   Page 5
                              At DHS, ODP was initially placed under the Border and Transportation Security
                              Directorate. However, recently proposed legislation and a DHS realignment plan
                              call for ODP and all DHS first responder and emergency preparedness grants to
                              be managed by DHS’s Office of State and Local Government Coordination and
                              Preparedness.

States and Locals Slow to Spend Funds, Although More Had Been
Committed or Obligated
                              As of February 2004, the majority of the $2.4 billion in FY 2002 and FY 2003
                              first responder grant funds awarded to the 56 states and territories remained
                              unspent and in the U.S. Treasury. However, draw down statistics do not tell
                              the whole story when trying to gauge the progress being made by states, local
                              jurisdictions, and first responders, because they only measure funds disbursed to
                              the states. Although only a small percentage of the funds had been drawn down,
                              much of the remainder had been committed or obligated4 by the states to local
                              jurisdictions for specific purchases.

           Funds Awarded and Drawn Down by the States
                              As of February 10, 2004, the 56 states and territories had drawn down only 36
                              percent of FY 2002 awards, and 13 percent and 10 percent, respectively, of FY
                              2003 SHSGP and SHSGP II awards. The FY 2002 awards were made 16 months
                              previously, and the FY 2003 SHSGP and SHSGP II awards were made eight
                              months and seven months previously. (See appendix C for FY 2002 and FY 2003
                              grant awards and appendix D for drawdowns.) The following charts compare the
                              amounts of funds awarded with the amounts of funds drawn down.




4
    An “obligation” is a binding agreement that will result in the outlay of funds (spending).

Page 6                           An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                         We sampled ten states that had been awarded $124 million of FY 2002 first
                         responder grants. Those states received 39 percent of the total FY 2002 funding.
                         As of November 4, 2003,5 12 months after the funds had been awarded, $102
                         million, or 82 percent, had not been drawn down by the states. The states we
                         sampled were: Texas, Georgia, Illinois, Ohio, Florida, Michigan, New York,
                         New Jersey, California, and Pennsylvania. The following chart shows amounts
                         awarded and drawn down by those states.




                         Of the $124 million, 18 percent, or $22 million, had been drawn down by the
                         states; 33 percent, or $41 million, was not available to be drawn down because
                         the states had not completed grant application requirements causing ODP to place


5
 More recent information on funds held by ODP was not available when the audit was performed. Consequently, for
comparability purposes, the OIG used disbursement data as of November 4, 2003, and did not include SHSGP II data.


           An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                                Page 7
                   a hold on the funds. The remaining 49 percent, or $61 million, was available but
                   had not been drawn down. The following chart shows those amounts for FY 2002
                   and FY 2003 grants.

                                  GRANT FUNDS AVAILABLE AND DRAWN DOWN
                                              Amount                              Drawn Down     Percent
                                   Date                     Held by   Available
                    Fiscal Year             Awarded to 10                         by States as   Drawn
                                  Awarded                    ODP      to States
                                               States                              of 11/4/03     Down
                      2002
                                  9/2002       $124m        $41m       $61m          $22m         18%
                     (SDPP)
                      2003
                                  5/2003       $224m        $64m      $145m          $15m         7%
                    (SHSGP)

                                     -         $348m        $105m     $206m          $37m         11%
                      Total

                   The 10 states showed little improvement drawing down FY 2003 SHSGP first
                   responder grant funds. In five months, 7 percent, or $15 million, of the $224
                   million awarded, had been drawn down.

         Funds Obligated and Spent by the States
                   Although only a small percentage of the funds had been drawn down, much
                   of the remainder had been committed or obligated. In addition, some states
                   and jurisdictions had already purchased equipment but had not yet requested
                   reimbursement under the grant. Also, some state officials told us that they do not
                   always draw down funds immediately after incurring expenses. Some states wait
                   until the end of the month to draw down grant funds. States are not required to
                   draw down grant funds as they incur program expenses.

                   The amounts of funds drawn down by states provide an incomplete picture of
                   the progress states and local jurisdictions are making. A more accurate way to
                   monitor progress would be to identify the amount of funds obligated and spent
                   (outlays) by the states and local jurisdictions. For example, as of September 30,
                   2003, Ohio and Pennsylvania obligated and spent over 98 percent of their FY
                   2002 grant awards, while ODP’s grant payment history reports showed that only
                   36 percent and 8 percent, respectively, were drawn down. For the 10 states in our
                   sample, obligations and spending totaled 42 percent versus 18 percent reported as
                   drawn down.

                   Obligations represent funds that are set aside, under a binding agreement, and
                   will be spent for a particular purpose. Outlays represent expenditures, whether


Page 8               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                   or not funds have been drawn down from the federal grant account. Combining
                   the two provides a better picture of what states have accomplished in executing
                   the grants. States are required to report obligations and outlays quarterly on a
                   federal standard form known as an SF 269, or Financial Status Report. However,
                   30 of the 56 states and territories do not report obligations because they report
                   grant activity on a cash, rather than an accrual basis. They report only outlays.
                   ODP should collect both obligations and outlays from all states and use that
                   information to monitor and report on states’ progress.

                   The following chart depicts grant funds obligated and spent for the 10 states in
                   our sample.




                   With respect to all 56 states and territories, they had obligated and spent 23
                   percent of their combined FY 2002 SDPP and FY 2003 SHSGP grant funds as
                   of September 30, 2003. That was more than twice the amount reported as drawn
                   down.

ODP Processing Times Have Improved but State and Local Delays
Continue
                   During FY 2003, ODP reduced its time to make application guidance and on-line
                   applications available to states, process grant applications, and award the grants
                   after the states submitted their grant applications. On average, for our sample of
                   10 states, the 2002 grants took 292 days to process, whereas it took 77 days to
                   process FY 2003 grants. ODP was responsible for 223 of the 292 days to process
                   FY 2002 grants and 35 of the 77 days to process FY 2003 grants. The majority of
                   the improvement in timeliness was due to ODP’s making applications available



      An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                 Page 9
          more quickly. The remaining days were used by states to submit their grant
          applications to ODP. There was also improvement in the number of days it took
          states to submit their applications. The following chart shows average processing
          times for FY 2002 and FY 2003 grants in our sample of 10 states.

                 IMPROVED PROCESSING OF FIRST RESPONDER GRANTS
                          Days for ODP to   Days for     Days for ODP Total Days    Total Days from
                         Make Applications  States to     to Approve   for ODP to    Legislation to
               State
                           Available from    Submit      Applications   Process     Award of Grants
                          Legislation Date Applications (Award Grants)   Grants     (ODP and State)
          2002 - SDPP
                               165             69            58           223            292
          Average

          2003 - SHSGP
          Average
                                17             42            18           35              77


          OIG heard complaints that the number of steps in the application process inhibited
          spending. However, for the most part, states praised ODP’s technical assistance,
          automated grant application process, and reductions in the amount of time
          ODP took to approve grants. Most state officials thought ODP processed their
          applications in a timely manner.

          State and local governments were sometimes responsible for delaying the
          delivery of FY 2002 grant funds to first responders. States had to submit a
          homeland security strategy. Grants had to be accepted by the states, awarded to
          local jurisdictions by the states, and accepted by the local jurisdictions. These
          processes required approval by various governing and political bodies within the
          states and local jurisdictions. Only three states were able to provide us data on
          the time taken for these processes. In one of the three states, it took 22 days to
          accept ODP’s grant award and 51 days to award a sub-grant to one of its local
          jurisdictions; it then took 92 days for the local jurisdiction to accept the grant.
          The second state took 25 days to accept ODP’s grant award and 80 to 161 days to
          award funds to local jurisdictions; it then took 13 to 50 days for the jurisdictions
          to accept the awards. The third state took 14 days to accept the grant, 17 days to
          award funds to its jurisdictions, and the jurisdictions took from 66 to 210 days to
          accept the awards. The following chart shows processing time variances for nine
          jurisdictions in three states.




Page 10     An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
             A congressional effort to speed delivery of FY 2003 funds may not have been
             effective and, in some cases, may have slowed spending of FY 2002 funds.
             Congress adopted appropriation language for the FY 2003 SHSGP II grant
             program that required states to transfer first responder grant funds within 45 days
             of the funds being awarded by ODP to ensure that states pass funds down to locals
             quickly. In response, ODP required states to obligate funds to local jurisdictions
             within 45 days. However, this action had a limited effect because most states
             are meeting the 45-day timeframe by using a loose definition of “obligate.” DHS



An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds               Page 11
               allows states to count funds as obligated when the states have agreed to allocate
               a specific amount of the grant to a state agency or local jurisdiction, even though
               the state has not determined specifically how the funds will be spent or when
               contracts for goods and services will be let. The short deadlines also force states
               to reduce the amount of time they spend planning. As a result, funds are still not
               reaching local jurisdictions in 45 days, and meeting the deadline often caused
               states and local jurisdictions to delay spending prior year grant funds. In addition,
               many of the reasons given for delays, as described below, point to administrative
               processes that need to be streamlined.

Reasons for Delays
               There were numerous reasons given for delays in spending the grant funds -
               - some may be unavoidable, while others indicate problems that need to be
               addressed.

               States are responsible for identifying the highest priority for spending the grant
               funds. That can be an extremely difficult task, and most states we visited were not
               satisfied with needs analyses they did prior to September 11, 2001. Some states
               took the time to update outdated needs analyses, and one state delayed FY 2002
               spending until it could complete a new assessment using ODP’s FY 2003 needs
               assessment tool. Additionally, there is little consistency in how the states manage
               the grant process. They use various methods for identifying and prioritizing
               needs and allocating funds. They may rely on the work of regional taskforces,
               statewide committees, county governments, mutual aid groups, or local fire and
               police organizations. Some states purchase equipment and deliver it to users,
               while others sub-grant the money directly to jurisdictions. When deciding how
               to allocate the grants among jurisdictions, states variously use population, threat,
               risk, and governors’ discretion.

               Following are some of the specific reasons given by state, local jurisdiction, and
               first responder representatives for delays in spending. The reasons are grouped by
               category: federal requirement and guidelines; state and local planning processes;
               and procurement issues.

               Federal requirements and guidelines

               1. States complained that there are too many different first responder
                  preparedness grant programs that must be considered in too short a time. This
                  makes processing more difficult than in the past. ODP has made progress in


Page 12          An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                expediting the awarding of grants; however, the number and dollar volume
                of grants, and expanded planning and application requirements has reduced
                the states’ and local governments’ ability to plan for and spend the funds
                quickly. In FY 1999, there were two first responder terrorism preparedness
                grant programs valued at $83.5 million. In FY 2003 there were six terrorism
                preparedness grant programs valued at $2.8 billion. Nine of the ten states
                believed that the application process was not difficult. Others complained of
                short timelines and inconsistent guidelines.

             2. There are communication problems at all levels. Inadequate communication
                creates confusion about eligibility, year-to-year changes in requirements,
                and the grant process. DHS announcements about fund availability lead to
                unrealistic expectations on the part of local governments and first responder
                organizations. States also pointed to confusion caused by changes ODP
                has made in its eligible equipment lists. While states appreciate that more
                equipment is now eligible for purchase, they believed that they should be
                allowed to purchase equipment recently added to the list with prior year
                grant funds. They said it is difficult and time consuming to track funding by
                program year to ensure that they do not use prior year funds to purchase what
                was ineligible equipment.

             3. Overall, state and local officials had very few concerns about ODP’s grant
                application process, but they did believe that aspects of the process could
                be simplified. Of the ten states in our sample, only one believed that ODP’s
                application process required too much detail to complete and that timelines
                were too short, although others agreed that they should carefully plan and
                decide how they will use the grant funds prior to receiving the funds. States
                also complained that equipment budget worksheets had to be revised several
                times before being approved by ODP, and that reporting requirements were
                continually expanding. A general complaint was that too many plans are
                required for the various preparedness grant programs. They want a “one-stop
                shop” to consolidate and standardize requirements.

             4. Planning efforts are often delayed because first responders and emergency
                managers do not have clear federal guidelines for equipment, training, and
                exercises and for preparedness levels, thus making it difficult to determine
                their highest priority needs and to decide how best to spend grant funds.
                State officials and first responders believed that the development of federal
                guidelines for first responders should be accelerated, and include such areas
                as interoperability, terminology and performance measurement. For example,



An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds              Page 13
             one official believed that the guidelines for training levels were vague and did
             not identify the level of training various first responders would need. Another
             official believed that if equipment guidelines were established there would
             be fewer problems with interoperability. Some suggested that DHS provide
             recommendations, or benchmarks, as to capability levels for first responders.

             On December 17, 2003, the President issued a Homeland Security Presidential
             Directive requiring that DHS develop a national domestic all-hazards
             preparedness goal. This goal will establish measurable readiness priorities and
             targets, including development of standards for preparedness assessments and
             strategies, and a system for assessing the nation’s overall preparedness. It is to
             be submitted to the President with DHS’s FY 2006 budget submission.

          State and local planning processes

          1. The planning process is complex and takes time. Grant applications require
             threat, risk, capability, vulnerability, and needs assessments. Finding
             consensus among hundreds of local jurisdictions and first responders on
             priorities and what to buy takes time. For example, in Texas, there are 1,449
             local jurisdictions eligible to receive first responder grant funds. The state
             requires that the local jurisdictions participate in its statewide planning
             and assessment process to be eligible for an award. While only 95 local
             jurisdictions participated in the state’s 2000 process, 753 participated in 2003.
             The planning and assessment process required each jurisdiction and its first
             responders to evaluate its needs and capabilities in ten responder disciplines,
             i.e., fire services, hazardous materials, emergency medical services, law
             enforcement, public works, government administration, public safety
             communication, health care, public health, and emergency management.
             Jurisdictions use the assessment to create an equipment list that they forward
             to a regional council established by the state. The councils review the lists
             and send a final list to the state for further review and approval.

             Georgia created All Hazard Councils (AHCs) in each of the eight regions
             within the state. These teams are made up of first responders from each of the
             first responder areas. The planning process begins with the locals, who send
             information up to the AHC in their region. The AHC, in turn, gathers and
             submits these local views to the state. These examples illustrate how creating
             a needs assessment and determining an appropriate equipment list can be a
             lengthy process.




Page 14     An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                We also visited Massachusetts, which was outside our sample, because it was
                the only state that had spent most of its FY 2002 first responder grant funds
                when the audit began in April 2002. Within a year of receiving its award,
                Massachusetts had spent 86 percent of its total grant award. The state was
                able to do this by forming a state strategy team that set spending priorities
                relatively quickly, and by using state staff to procure equipment centrally for
                all local jurisdictions. The Strategy Team was comprised of representatives
                from Massachusetts’ Emergency Management Agency, State Police, National
                Guard, Hazardous Response Teams, and Department of Public Health,
                and from the Fire Chiefs Association, the Police Chiefs Association, and
                local Emergency Management Directors. The team met numerous times
                and reviewed the state’s pre-September 11, 2001, needs analyses and
                recommendations from local officials before reaching a consensus. The
                team decided not to prioritize FY 2002 spending as outlined in the needs
                analyses but chose to: 1) use 64 percent of the funds to purchase 65 mass
                decontamination units; 2) enhance statewide communication capabilities;
                and 3) purchase specialized personal protective and detection equipment.
                Therefore, most of the funding was spent quickly on a fairly expensive type of
                equipment, from one vendor.

             2. Building regional structures within the states, which some states have and
                some have not, takes time. In our sample of 10 states, California, Georgia
                Florida, Illinois, Pennsylvania, and Texas used a regional approach, while
                the others did not. While we were unable to determine the impact of these
                regional structures on spending delays, some regions are finding it difficult
                to recruit members and chairpersons, and to find jurisdictions willing to take
                on the responsibility of providing purchasing and accounting services for
                the entire region. Another state, Ohio, said it would soon adopt a regional
                structure but was unsure about how best to group its 88 counties and 5 state
                agencies.

             3. State officials told us that they prefer to go slow to get it right. The consensus
                was that it is more important to spend time planning than to spend money
                quickly. For most of the grants, states have two or three years to spend the
                money. Some prefer to spend prior-year money first.

             4. State legislatures and county and city boards or councils sometimes cause
                administrative delays in accepting grants, approving distribution, and
                approving expenditures. Six of the ten states we sampled cited the length of




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                  Page 15
                their own state’s review and approval process as one of the top three reasons
                that the funds have not been spent.

             5. Inadequate staffing is a problem in many states and jurisdictions. The recent
                economic downturn and budget shortages have made it difficult for states
                to fund administrative positions. FY 2003 grants added more funding for
                administering the grants.

             Procurement issues

             1. State and local procurement processes can be long. Many of the equipment
                purchase methods have proved to be slow due to internal processing delays.
                Some states purchase equipment centrally for all jurisdictions, while others
                sub-grant funds so that purchases are made by local jurisdictions.

             2. Equipment delivery delays may be unavoidable. Many of the equipment
                items being purchased are the same items purchased by the military – a higher
                priority for the vendors. Representatives for seven states in our sample of
                10 said that purchasing equipment was challenging. Five said equipment
                backorder was one of the main reasons for spending delays.

             3. State and local officials and first responders were fearful that the federal
                funding stream may not continue, so that equipment purchased with the
                grants cannot be maintained or replaced when obsolete, and training and
                exercises will have to be stopped. Long-term and stable funding would allow
                state and local governments to plan for, build, and maintain an appropriate
                emergency preparedness and response capability. This concern may have
                been exacerbated since the department’s FY 2005 DHS budget request reduces
                terrorism preparedness grant funding by $800 million from the previous year.

Monitoring and Measuring Performance
             Efforts to monitor and measure the impact of first responder grants needs to be
             improved.

             ODP has not implemented a formal grant monitoring system, nor has ODP staff
             conducted frequent field visits to grant recipients. None was conducted in FY
             2002 or FY 2003. ODP has drafted monitoring guidance but has only partially
             implemented it. Overall, the draft guidance appears reasonable, and should be
             finalized and implemented as soon as possible.


Page 16        An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                   OJP and state program officials are responsible for financial monitoring of first
                   responder grants. OJP conducted 19 reviews of FY 2002 ODP grants, and only
                   six reviews of the FY 2003 grants. OJP did not provide a specific explanation for
                   the drop in reviews, but did note that ODP grants are only a small portion of the
                   DOJ grants that it is responsible for reviewing. In addition, OJP’s policy is not to
                   review the same grantee within a two-year period, unless there are extraordinary
                   circumstances. ODP needs to ensure that financial monitoring of its first
                   responder grant programs is conducted more frequently to ensure that the states
                   are effectively using grant funds.

                   In March 2002, DOJ OIG reported that ODP had not established performance
                   measures or a method for determining whether grant funding provided to states
                   improved their capability to respond to terrorist incidents. Since that report, ODP
                   has provided states guidance on performance measures and plans to integrate
                   information received from the states with data received from its new assessment
                   tool. ODP requires states to measure performance improvement by the number
                   of local jurisdictions that conducted exercises and enhanced capability with
                   new equipment and training. However, such measures do not fully address
                   how federal funding has increased preparedness and response capabilities. For
                   example, the training measure does not describe how first responders’ skills
                   have been improved or the level to which they have been trained. ODP should
                   design measures that can be used to create a national picture of the increases in
                   first responder preparedness and response capabilities and that can demonstrate
                   the overall success of its grant programs. In addition, most state and local
                   officials we spoke with said they have not yet had the time or resources to address
                   measuring performance improvements resulting from the grants. This issue is
                   quickly increasing in importance and will need ODP’s attention in the near future.

Consolidation of Preparedness Grants
                   Since FY 1998, state and local governments responsible for emergency
                   preparedness and response have been calling for the establishment of a “one-stop-
                   shop” that would consolidate the various federal preparedness grants into a single,
                   streamlined comprehensive program. In response, DHS is moving selected
                   grants currently in the Emergency Preparedness & Response Directorate and the
                   Border and Transportation Security Directorate into the Office of State and Local
                   Government Coordination and Preparedness. Grants proposed for moving to the
                   new office include Homeland Security Grants, Assistance to Firefighters Grants,
                   Emergency Management Performance Grants, Port Security Grants, and other
                   grant programs.


      An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                 Page 17
             DHS believes that the benefits of the consolidation will include a simplified
             application and award process, enhanced assistance that would allow states
             to better implement their Statewide Homeland Security Strategies, and the
             development of comprehensive preparedness programs in support of those
             strategies. Overall, the department should be better positioned to provide
             consistency in policy and program development, improved efficiency in program
             management and implementation, and a greater ability to evaluate program
             success. OIG strongly supports this effort and will monitor its implementation.

Conclusion and Recommendations
             States, local jurisdictions, and first responder organizations have been slow
             to receive and spend ODP first responder terrorism preparedness grant funds.
             However, the statistics on drawdowns are somewhat misleading, and the spending
             picture is not as bad as it appears. In some instances, states and local jurisdictions
             had delayed spending funds pending the development of detailed spending plans,
             believing that spending the funds wisely was more important than spending them
             immediately. In addition to delays caused by states developing detailed plans
             for spending the funds wisely, we identified numerous other reasons for delayed
             spending. While some of the delays are unavoidable, others can be reduced.
             ODP’s application process was not a major reason for delays. For the most part,
             state officials praised ODP and thought ODP processed grant applications in a
             timely manner. The OIG recommends that the Director, Office for Domestic
             Preparedness:

             1. Require more meaningful reporting by states so ODP can track progress
                more accurately and assist states when necessary. Specifically, ensure that
                the definition of obligation is consistent for both programmatic and financial
                reporting purposes and require states using a “cash basis” accounting system
                to report the value of binding agreements to be funded by first responder grant
                funds.

             2. Seek a legislative change to revise or eliminate the 45-day transfer rule to
                allow more time for planning.

             3. Identify and publish best practices that result in faster and more efficient grant
                processing and spending. For example, identify state procurement practices
                that result in first responder equipment being supplied in a timely and cost
                effective manner.



Page 18        An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
             4. Accelerate the development of federal guidelines for first responder
                capabilities, equipment, training, and exercises.

             5. Publish program monitoring guidance and ensure that states report their
                progress in achieving program and performance goals and objectives.

             6. Monitor state oversight of local jurisdictions’ compliance with grant
                requirements, and develop performance standards that can be used to measure
                the overall success of the grant programs, including baselines against which to
                measure progress.

             7. Consider allowing states to use the most recent ODP-approved equipment list
                when purchasing equipment with prior-year grant funds.




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds               Page 19
Appendix A
Purpose, Scope and Methodology


Purpose, Scope, and Methodology
                    The objective of the audit was to determine whether the distribution and spending
                    of first responder grant funds were being delayed and, if so, to identify the reasons
                    for delays. We evaluated ODP’s grant award process, drawdowns and spending
                    by each state, and distributions to local governments to identify significant delays.

                    We visited the emergency management or homeland security offices of 11 states,
                    31 local governmental organizations that manage first responder funds, and
                    38 first responder organizations. We selected as our sample the ten states that
                    received the most funding: Texas, Georgia, Illinois, Ohio, Florida, Michigan, New
                    York, New Jersey, California, and Pennsylvania. These ten states were awarded
                    $124 million, or 39 percent, of the $316 million in grant funds awarded in FY
                    2002. We also visited Massachusetts, which was outside our sample, because it
                    was the only state that had spent most of its FY 2002 grant funds. In each of the
                    states, we interviewed responsible program officials and first responders. Also,
                    we reviewed ODP and OJP program and financial files, as well as documentation
                    provided to us by state and local officials. We relied upon OJP’s draw down
                    data to determine the amount of grant funds that remained with ODP. Specific
                    information on state, local jurisdictions, and first responder organizations that we
                    visited is identified in appendix B.

                    Audit work was conducted between April 2003 and December 2003 and was
                    performed under the authority of the Inspector General Act of 1978, as amended,
                    and according to government auditing standards.

                    Throughout the audit, OIG worked closely with ODP and OJP officials. The
                    cooperation and courtesies extended to the audit team are appreciated. The
                    principal OIG points of contact for the audit are Assistant Inspector General
                    for Audits, J. Richard Berman, (202) 254-4100, and Dennis White, Director,
                    Emergency Preparedness and Response, (202) 254-4157. Major OIG contributors
                    to the audit are identified in appendix H.




Page 20               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                        Appendix B
                                        State and Local Jurisdictions Visited During the Audit


         1. California
               a. State Agencies
                    i.    California Office of Homeland Security
                    ii.   California Office of Emergency Services
               b. Local Governmental Organizations
                    i.    Santa Clara County - Office of Emergency Services
                    ii.   City of San Jose – Office of Emergency Services
                    iii. Los Angeles County - Office of Emergency Management
                    iv.   San Diego County - Office of Emergency Services
               c. First Responders
                    i.    Santa Clara County, Office of the Sheriff
                    ii.   San Jose Police
                    iii. City of Solana Beach - Public Safety

         2. Florida
               a. State Agencies
                    i.    Florida Department of Community Affairs, Division of Emergency
                          Management Agency
               b. Local Governmental Organizations
                    i.    Broward County Commission, Department of Safety and
                          Emergency Services, Fire Rescue Division
                    ii.   Miami-Dade County Office of Emergency Management
               c. First Responders
                    i.    Broward County Sheriff’s Office
                    ii.   City of Hollywood – Fire/Rescue
                    iii. Miami-Dade Fire Rescue
                    iv.   City of Miami – Fire Department
                    v.    Jackson Memorial Hospital
                    vi. University of Miami, School of Medicine, Florida Poison
                          Information Center
                    vii. City of Hialeah - Fire Department
                    viii. Palm Beach County Sheriff’s Office
                    ix. Delray Beach - Fire Department
                    x.    St. Mary’s Medical Center

         3. Georgia
               a. State Agencies
                    i.   Georgia Emergency Management Agency
                    ii.  Georgia Public Safety Training Center




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds               Page 21
Appendix B
State and Local Jurisdictions Visited During the Audit


                          b. First Responders
                              i.     Cobb County Fire and Emergency Services
                              ii.    Fulton County Fire Department
                              iii. DeKalb County Fire and Rescue Department

                  4. Illinois
                         a. State Agencies
                              i.    Illinois Emergency Management Agency
                         b. Local Governmental Organizations
                              i.    Mutual Aid Box Alarm System (Fire)
                              ii.   Illinois Law Enforcement Alarm System (Police)
                              iii. City of Chicago Grants Management
                         c. First Responders
                              i.    Elmhurst Police
                              ii.   Plainfield Police

                  5. Massachusetts
                       a. State Agencies
                            i.    Massachusetts Executive Office of Pubic Safety (Boston)
                            ii.   Massachusetts Emergency Management Agency (Framingham)
                            iii. Massachusetts State Police Marine Section (Boston Harbor)
                       b. First Responders
                            i.    City of Concord Fire Department
                            ii.   City of Worcester Fire Department

                  6. Michigan
                        a. State Agencies
                            i.     Michigan Department of State Police, Homeland Security
                        b. Local Governmental Organizations
                            i.     Kent County Sheriff Department
                            ii.    Oakland County –
                            iii. County Executives Office, Special Projects
                            iv.    Emergency Response and Preparedness Unit
                            v.     City of Detroit, Office of Homeland Security and Emergency
                                   Management
                            vi. Wayne County, Department of Homeland Security and Emergency
                                   Management
                            vii. The Downriver Community Conference
                        c. First Responders
                            i.     Kent County Sheriff Department



Page 22                  An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                        Appendix B
                                        State and Local Jurisdictions Visited During the Audit


                      ii.    Spectrum Health
                      iii.   Commerce Township Fire Department
                      iv.    Milford Township Fire Department
                      v.     City of Detroit - Fire Department
                      vi.    City of Taylor- Fire Department
                      vii.   City of Trenton – Disaster Emergency Response Team

         7. New Jersey
              a. State Agencies
                   i.    New Jersey Department of Law and Public Safety
              b. Local Governmental Organizations
                   i.    Essex County - Office of Emergency Management
                   ii.   Middlesex County - Health Department
              c. First Responders
                   i.    Bergen County Police

         8. New York
              a. State Agencies
                   i.    New York State Executive Director of the Weapons of Mass
                         Destruction Task Force (Albany)
              b. Local Governmental Organizations
                   i.    Erie County - Emergency Services Commissioner
                   ii.   New York City –
                        1. Office of Management and Budget
                        2. Office of Emergency Management
                   iii. Suffolk County –
                        1. Office of Emergency Management
                        2. Suffolk County Deputy Commissioner
                        3. Department of Health Services, Division of Emergency
                              Services
              c. First Responders
                   i.    Suffolk County Fire and Rescue
                   ii.   Suffolk County Police Department

         9. Ohio
               a. State Agencies
                   i.    Ohio Emergency Management Agency (EMA)
                   ii.   Ohio Department of Administrative Services
               b. Local Governmental Organizations
                   i.    Franklin County – Emergency Management Agency



An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds               Page 23
Appendix B
State and Local Jurisdictions Visited During the Audit


                               ii.    Cuyahoga County - Emergency Services Division

                  10. Pennsylvania
                         a. State Agencies
                             i.     Pennsylvania Emergency Management Agency
                         b. Local Governmental Organizations
                             i.     Southeastern Pennsylvania Regional Terrorism Task Force
                             ii.    Southwestern Pennsylvania Emergency Response Group
                             iii. South Central Pennsylvania Region Counter-Terrorism Task Force
                         c. First Responders
                             i.     Northampton Township Police
                             ii.    Southampton Fire Co.
                             iii. Bucks County Hazardous Incident Response Team

                  11. Texas
                         a. State Agencies
                             i.     Texas Engineering Extension Services (TEEX), College Station - a
                                    component of the Texas A&M University system
                         b. Local Governmental Organizations
                             i.     City of Houston – Office of Emergency Management
                             ii.    City of Dallas – Emergency Preparedness
                             iii. City of San Antonio Office of Emergency Management
                         c. First Responders
                             i.     Dallas Fire-Rescue
                             ii.    Dallas Police Department
                             iii. San Antonio Fire Department
                             iv.    San Antonio Police Department
                             v.     Corpus Christi Fire Department




Page 24                  An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                    Appendix C
                                                    FY2002 SDPP and FY2003 SHSGP and SHSGP II Awards


                                                                               TOTAL AWARDS
             STATE            2002 SDPP      2003 SHSGP     2003 SHSGP II                   Percentage
                                                                             Amount
                                                                                             of Total
Alabama                         $5,317,000     $9,457,000     $25,049,000     $39,823,000         1.7%
Alaska                           2,783,000      4,995,000      13,230,000      21,008,000         0.9%
American Samoa                    828,000       1,482,000       3,926,000       6,236,000         0.3%
Arizona                          5,770,000     10,584,000      28,033,000      44,387,000         1.9%
Arkansas                         4,141,000      7,394,000      19,585,000      31,120,000         1.3%
California                      24,831,000     45,023,000     119,256,000     189,110,000         7.9%
Colorado                         5,220,000      9,480,000       25,111,000     39,811,000         1.7%
Connecticut                      4,626,000      8,265,000      21,893,000      34,784,000         1.5%
Delaware                         2,887,000      5,185,000      13,733,000      21,805,000         0.9%
District of Columbia             2,747,000      4,910,000      13,006,000      20,663,000         0.9%
Florida                         12,967,000     23,654,000      62,655,000      99,276,000         4.2%
Georgia                          7,797,000     14,188,000      37,579,000      59,564,000         2.5%
Guam                              892,000       1,596,000       4,226,000       6,714,000         0.3%
Hawaii                           3,172,000      5,693,000      15,079,000      23,944,000         1.0%
Idaho                            3,226,000      5,803,000      15,375,000      24,404,000         1.0%
Illinois                        10,604,000     18,879,000      50,005,000      79,488,000         3.3%
Indiana                          6,400,000     11,399,000      30,194,000      47,993,000         2.0%
Iowa                             4,308,000      7,656,500      20,282,000      32,246,500         1.4%
Kansas                           4,151,000      7,401,000      19,603,000      31,155,000         1.3%
Kentucky                         5,048,000      9,001,000      23,838,000      37,887,000         1.6%
Louisiana                        5,331,000      9,451,000      25,037,000      39,819,000         1.7%
Maine                            3,213,000      5,751,000      15,232,000      24,196,000         1.0%
Maryland                         5,881,000     10,585,000      28,037,000      44,503,000         1.9%
Massachusetts                    6,579,000     11,711,000      31,020,000      49,310,000         2.1%
Michigan                         8,958,000     15,918,000      42,162,000      67,038,000         2.8%
Minnesota                        5,631,000     10,076,000      26,690,000      42,397,000         1.8%
Mississippi                      4,255,000      7,582,000      20,083,000      31,920,000         1.3%
Missouri                         6,079,000     10,834,000      28,697,000      45,610,000         1.9%
Montana                          2,967,000      5,303,000      14,047,000      22,317,000         0.9%
Nebraska                         3,502,000      6,254,500      16,568,000      26,324,500         1.1%
Nevada                           3,693,000      6,771,000      17,935,000      28,399,000         1.2%
New Hampshire                    3,328,000      5,727,000      15,172,000      24,227,000         1.0%
New Jersey                       7,948,000     14,222,000      37,671,000      59,841,000         2.5%
New Mexico                       3,574,000      6,401,000      16,956,000      26,931,000         1.1%
New York                        14,953,000     26,492,000      70,172,000     111,617,000         4.7%
North Carolina                   7,706,000     13,908,000      36,840,000      58,454,000         2.5%
North Dakota                     2,794,000      4,983,000      13,200,000      20,977,000         0.9%
Northern Mariana Islands          835,000       1,496,000       3,963,000       6,294,000         0.3%




              An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                  Page 25
Appendix C
FY2002 SDPP and FY2003 SHSGP and SHSGP II Awards


 Ohio                      9,897,000      17,510,000       46,378,000          73,785,000     3.1%
 Oklahoma                  4,656,000       8,304,000       21,996,000          34,956,000     1.5%
 Oregon                    4,637,000       8,336,000       22,081,000          35,054,000     1.5%
 Pennsylvania             10,512,000      18,570,000       49,189,000          78,271,000     3.3%
 Puerto Rico               4,894,000       8,727,000        23,118,000         36,739,000     1.5%
 Rhode Island              3,063,000       5,489,000       14,540,000          23,092,000     1.0%
 South Carolina            5,028,000       9,017,000       23,882,000          37,927,000     1.6%
 South Dakota              2,868,000       5,131,000       13,591,000          21,590,000     0.9%
 Tennessee                 6,140,000      10,978,000       29,080,000          46,198,000     1.9%
 Texas                    16,196,000      29,538,000       78,238,000         123,972,000     5.2%
 Utah                      3,849,000       6,937,000       18,374,000          29,160,000     1.2%
 Vermont                   2,772,000       4,963,000       13,147,000          20,882,000     0.9%
 Virginia                  7,062,000      12,716,000       33,683,000          53,461,000     2.2%
 Virgin Islands, U.S.        861,000       1,542,000         4,085,000          6,488,000     0.3%
 Washington                6,276,000      11,294,000       29,917,000          47,487,000     2.0%
 West Virginia             3,567,000       6,340,000       16,792,000          26,699,000     1.1%
 Wisconsin                 5,925,000      10,565,000       27,985,000          44,475,000     1.9%
 Wyoming                   2,696,000       4,827,000       12,784,000          20,307,000     0.9%
 GRAND TOTAL            $ 315,841,000   $ 566,295,000   $1,500,000,000   $   2,382,136,000   100.0%




Page 26                 An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                       Appendix D
                       FY2002 SDPP and FY2003 SHSGP and SHSGP II Draw Downs as of February 2004


                                 FY 2002 SDPP                      FY 2003 SHSGP                     FY 2003 SHSGP II
           State            Awarded                                            Drawn
                                          Drawn ($115M)     Awarded ($566M)                  Awarded ($1,500M)   Drawn ($156M)
                            ($316M)                                            ($71M)
Alabama                      $5,317,000       $2,866,889          $9,457,000       $98,821         $25,049,000       $1,622,255
Alaska                        2,783,000           71,600           4,995,000        25,255          13,230,000            42,651
American Samoa                  828,000          181,808           1,482,000            0            3,926,000           214,152
Arizona                       5,770,000         2,552,407         10,584,000    1,440,515           28,033,000          1,268,220
Arkansas                      4,141,000         1,409,372          7,394,000    2,521,666           19,585,000          3,241,401
California                   24,831,000         2,519,960         45,023,000    2,966,828          119,256,000       19,071,957
Colorado                      5,220,000          528,749           9,480,000            0           25,111,000            36,388
Connecticut                   4,626,000         1,245,655          8,265,000            0           21,893,000                 0
Delaware                      2,887,000                0           5,185,000            0           13,733,000                 0
District of Columbia          2,747,000         2,558,690          4,910,000            0           13,006,000          1,734,000
Florida                      12,967,000         8,702,835         23,654,000    2,273,323           62,655,000          5,871,373
Georgia                       7,797,000          942,500          14,188,000    1,858,500           37,579,000          2,171,100
Guam                            892,000          753,037           1,596,000        75,566           4,226,000                 0
Hawaii                        3,172,000           74,071           5,693,000       127,534          15,079,000          1,144,242
Idaho                         3,226,000          640,401           5,803,000       572,511          15,375,000           890,469
Illinois                     10,604,000         5,777,509         18,879,000    4,955,513           50,005,000                 0
Indiana                       6,400,000         1,151,268         11,399,000    4,859,562           30,194,000          9,763,354
Iowa                          4,308,000         3,444,273          7,656,500        58,210          20,282,000           267,648
Kansas                        4,151,000         3,940,345          7,401,000       252,327          19,603,000            18,143
Kentucky                      5,048,000          759,630           9,001,000    1,655,413           23,838,000           728,915
Louisiana                     5,331,000          686,341           9,451,000        95,686          25,037,000           543,563
Maine                         3,213,000         2,657,172          5,751,000    1,009,281           15,232,000           672,150
Maryland                      5,881,000         4,244,702         10,585,000       275,912          28,037,000           379,785
Massachusetts                 6,579,000         5,929,733         11,711,000        40,803          31,020,000          3,020,181
Michigan                      8,958,000         5,875,820         15,918,000       574,941          42,162,000           194,246
Minnesota                     5,631,000         3,014,307         10,076,000       351,914          26,690,000           494,163
Mississippi                   4,255,000          107,619           7,582,000       724,245          20,083,000           391,420
Missouri                      6,079,000         4,225,100         10,834,000    1,815,200           28,697,000          3,092,700
Montana                       2,967,000         1,245,902          5,303,000       233,966          14,047,000            86,157
Nebraska                      3,502,000         1,865,113          6,254,500       551,663          16,568,000          1,503,965
Nevada                        3,693,000         2,874,192          6,771,000    1,259,919           17,935,000           845,534
New Hampshire                 3,328,000          424,849           5,727,000       334,006          15,172,000            61,911
New Jersey                    7,948,000                0          14,222,000            0           37,671,000          2,318,265
New Mexico                    3,574,000          106,091           6,401,000        73,673          16,956,000                 0
New York                     14,953,000                0          26,492,000   13,000,000           70,172,000       60,000,000
North Carolina                7,706,000         3,517,086         13,908,000       516,434          36,840,000           250,620
North Dakota                  2,794,000         1,240,166          4,983,000       565,640          13,200,000           148,962
Northern Mariana
                                835,000          545,917           1,496,000            0            3,963,000                 0
Islands




              An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                             Page 27
Appendix D
FY2002 SDPP and FY2003 SHSGP and SHSGP II Draw Downs as of February 2004


 Ohio                 9,897,000       5,435,537        17,510,000      2,652,971         46,378,000        1,500,277
 Oklahoma             4,656,000              0          8,304,000             0          21,996,000         183,362
 Oregon               4,637,000        682,682          8,336,000       199,478          22,081,000         675,958
 Pennsylvania        10,512,000       2,578,458        18,570,000       209,395          49,189,000         866,720
 Puerto Rico          4,894,000        182,426          8,727,000             0          23,118,000               0
 Rhode Island         3,063,000       1,170,550         5,489,000      1,899,312         14,540,000        9,285,838
 South Carolina       5,028,000       2,539,155         9,017,000       276,082          23,882,000         262,375
 South Dakota         2,868,000       1,362,448         5,131,000      1,011,363         13,591,000               0
 Tennessee            6,140,000       2,026,109        10,978,000        22,742          29,080,000               0
 Texas               16,196,000       1,587,327        29,538,000      1,652,929         78,238,000         649,310
 Utah                 3,849,000       2,001,356         6,937,000      1,190,913         18,374,000        3,388,303
 Vermont              2,772,000       1,883,177         4,963,000      1,466,921         13,147,000         559,084
 Virginia             7,062,000       5,560,966        12,716,000      4,175,589         33,683,000       11,140,543
 Virgin Islands        861,000         125,923          1,542,000        14,173           4,085,000               0
 Washington           6,276,000       2,527,968        11,294,000      6,355,323         29,917,000        1,211,789
 West Virginia        3,567,000       3,567,000         6,340,000      1,319,768         16,792,000               0
 Wisconsin            5,925,000       2,724,977        10,565,000      3,109,642         27,985,000        4,595,725
 Wyoming              2,696,000              0          4,827,000             0          12,784,000               0
 GRAND TOTAL       $315,841,000   $ 114,637,167   $   566,295,000   $ 70,721,430   $   1,500,000,000   $ 156,409,171




Page 28              An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                                               Appendix E
                                                                               Recommendations


             The OIG recommends that the Director, Office for Domestic Preparedness:

             1. Require more meaningful reporting by states so ODP can track progress
                more accurately and assist states when necessary. Specifically, ensure that
                the definition of obligation is consistent for both programmatic and financial
                reporting purposes and require states using a “cash basis” accounting system
                to report the value of binding agreements to be funded by first responder grant
                funds.

             2. Seek a legislative change to revise or eliminate the 45-day transfer rule to
                allow more time for planning.

             3. Identify and publish best practices that result in faster and more efficient grant
                processing and spending. For example, identify state procurement practices
                that result in first responder equipment being supplied in a timely and cost
                effective manner.

             4. Accelerate the development of federal guidelines for first responder
                capabilities, equipment, training, and exercises.

             5. Publish program monitoring guidance and ensure that states report their
                progress in achieving program and performance goals and objectives.

             6. Monitor state oversight of local jurisdictions’ compliance with grant
                requirements, and develop performance standards that can be used to measure
                the overall success of the grant programs, including baselines against which to
                measure progress.

             7. Consider allowing states to use the most recent ODP-approved equipment list
                when purchasing equipment with prior-year grant funds.




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds                  Page 29
Appendix F
Management Comments




Page 30               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                                       Appendix F
                                                                       Management Comments




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds            Page 31
Appendix F
Management Comments




Page 32               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                                       Appendix F
                                                                       Management Comments




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds            Page 33
Appendix F
Management Comments




Page 34               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                                       Appendix F
                                                                       Management Comments




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds            Page 35
Appendix F
Management Comments




Page 36               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                                       Appendix F
                                                                       Management Comments




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds            Page 37
Appendix F
Management Comments




Page 38               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                                       Appendix F
                                                                       Management Comments




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds            Page 39
Appendix F
Management Comments




Page 40               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                                       Appendix F
                                                                       Management Comments




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds            Page 41
Appendix F
Management Comments




Page 42               An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                               Appendix G
                                                               OIG Analysis of Management Comments


The OIG evaluated the Office for Domestic Preparedness’ written comments and has made changes
to the report where appropriate. A summary of the written comments and our analysis regarding the
recommendations made in the report are as follow:

Recommendations

   1. Require more meaningful reporting by states so ODP can track progress more accurately
      and assist states when necessary. Specifically, ensure that the definition of obligation is
      consistent for both programmatic and financial reporting purposes and require states using
      a “cash basis” accounting system to report the value of binding agreements to be funded by
      first responder grant funds.

       ODP agrees with the intent of this recommendation, but responded that implementing parts of
       our recommendation, such as a consistent definition of obligation, would be difficult. For its FY
       2004 grant programs, ODP has instituted a new reporting template. This template, according to
       ODP, allows better tracking of grantee progress in achieving the goals and objectives detailed in
       their State Homeland Security Strategies.

       The OIG’s purpose in making this recommendation is to have ODP collect information that will
       allow it to measure the use of grant funds more effectively. We will review ODP’s new reporting
       template to determine whether it accomplishes that purpose.

   2. Seek a legislative change to revise or eliminate the 45-day transfer rule to allow more time
      for planning.

       ODP responded that in FY 2004 the states were given 60 days, as opposed to 45, in which to
       make funds available to local governments.

       The OIG agrees that this is an improvement. ODP, though, should evaluate the effectiveness of
       the time limit to determine whether or not it results in a more rapid use of grant funds.

   3. Identify and publish best practices that result in faster and more efficient grant processing
      and spending. For example, identify state procurement practices that result in first
      responder equipment being supplied in a timely and cost effective manner.

       ODP did not comment on this recommendation.




         An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds               Page 43
 Appendix G
 OIG Analysis of Management Comments



   4. Accelerate the development of federal guidelines for first responder capabilities,
      equipment, training, and exercises.

          ODP responded that it has produced numerous guidelines and protocols for the emergency
          responder community and defined a methodology for evaluating performance-based exercises.

          The OIG agrees that such activities are important. However, states and jurisdictions were
          looking to DHS for performance standards, as well as equipping and training standards, that they
          can apply to their first responder organizations to help them determine where their shortfalls are
          and identify their highest priority needs. The OIG is not sure that what ODP has accomplished
          thus far meets those expectations.

   5. Publish program monitoring guidance and ensure that states report their progress in
      achieving program and performance goals and objectives.

          ODP responded that it has formal monitoring protocols that call for Preparedness Officers to
          review progress that states are making toward their State Homeland Security Strategies.

          The OIG will review ODP’s published monitoring guidance.

   6. Monitor state oversight of local jurisdictions’ compliance with grant requirements, and
      develop performance standards that can be used to measure the overall success of the grant
      programs, including baselines against which to measure progress.

          ODP did not comment on this recommendation.

   7. Allow states to use the most recent ODP-approved equipment list when purchasing
      equipment with prior-year grant funds.

          ODP responded that this recommendation would have a negative impact on accounting practices,
          vendor selection, equipment maintenance, and training and calibration programs managed by
          ODP grantees.

          The OIG based this recommendation on the simple logic that current equipment lists have added
          items of equipment that have been determined to be appropriate for first responders, and that
          states and jurisdictions should be able to purchase those items with funds from prior years. The
          OIG changes this recommendation to state that ODP should consider allowing the use of the
          most recent equipment lists, and we will discuss this recommendation further with ODP.




Page 44                    An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
                                                             Appendix H
                                                             Major Contributors to this Report


             Kim Hurley, Audit Manager
             Gina Smith, Audit Manager
             Deirdre Hines, Program Analyst
             Nicki Miller, Auditor
             Cynthia Noel, Auditor
             Leslie Anne Sibick, Program Analyst
             John Woo, Auditor




An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds               Page 45
Appendix I
Report Distribution


                      Department of Homeland Security

                      Office of the Under Secretary for Border and Transportation Security
                      Office for Domestic Preparedness
                      Office of State and Local Coordination

                      Office of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees as Appropriate




Page 46                 An Audit of Distributing and Spending ODP’s “First Responder” Grant Funds
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland, Washington, DC 20528,
Attn: Office of Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
